WAIVER

Supreme Court of the United States

No. 20-797
Leonard Patti Vv. George C, Peck
(Petitioner) (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
& Please enter my appearance as Counsel of Record for all respondents.

O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel} of Record for the following respondent(s):

 

 

4, lam a member of the Bar of the Supreme Court of the United States.

0 Tam not presently a member of the Bar of this Court, Should a response be requested,
the response will be filed by a Bar Wie

Signature we moe AG Lp .
vate (S$ |30a

(Type or print) Name. Worold Klein

 

 

SoM, O Ms. OMrs, OMiss
Frm \Ntiyar Loss Queue Ue
Address_ly 3° craters
City & State : WS Zip DIOSY:

 

Phone SWY3 - 4403-\Log

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM, NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED,

ce We. orend Po Do &
QO Merman So Aet 3
E- Ruthke NT nog

Obtain status of case on the docket, By phone at 202-479-8034 or via the internet at
http://www .supremecourtus.gov. Have the Supreme Court docket number available.
